No. 20-472
IN THE

Supreme Court of the United States
————
HOLLYFRONTIER CHEYENNE REFINING, LLC,
HOLLY-FRONTIER REFINING & MARKETING, LLC,
HOLLYFRONTIER WOODS CROSS REFINING, LLC, &
WYNNEWOOD REFINING CO., LLC,
v.

Petitioners,

RENEWABLE FUELS ASSOCIATION, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
————
MOTION FOR LEAVE TO FILE BRIEF
AMICUS CURIAE AND BRIEF OF
COUNTRYMARK REFINING AND
LOGISTICS, LLC AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
————
JENNY R. BUCHHEIT
Counsel of Record
ICE MILLER LLP
One American Square
Suite 2900
Indianapolis, Indiana 46282
(317) 236-2100
Jenny.Buchheit@
icemiller.com
Counsel for Amicus Curiae
November 12, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

MOTION FOR LEAVE TO FILE
AMICUS CURIAE BRIEF
IN SUPPORT OF PETITIONERS
Pursuant to Rule 37.2(b), Countrymark Refining
and Logistics, LLC (“CountryMark”) respectfully requests
leave to submit a brief as amicus curiae in support of
the petition for writ of certiorari filed by Petitioners
HollyFrontier Cheyenne Refining, LLC, HollyFrontier
Refining & Marketing, LLC, HollyFrontier Woods Cross
Refining, LLC, and Wynnewood Refining Co., LLC. Pursuant to Rule 37.2(a), CountryMark timely notified all
parties’ counsel of its intent to file this brief more than
10 days before the due date. Petitioners and Respondent United States Environmental Protection Agency
consented to the filing of this brief. Respondents Renewable Fuels Association, American Coalition for Ethanol,
National Corn Growers Association, and National
Farmers Union declined consent to file this brief.
CountryMark offers a unique perspective to aid the
Court in evaluating the petition for certiorari, especially with respect to the practical implications for the
Tenth Circuit’s decision. Founded in 1919, CountryMark
is a farmer-owned cooperative that has grown to one
of the largest agriculture cooperatives in the nation,
and it is recognized as a leader in the distribution of
biodiesel and ethanol. It is the only farmer-owned integrated oil company in the United States. CountryMark
has a significant interest in this appeal because the
Tenth Circuit’s decision threatens financial ruin for
CountryMark, and as the certiorari petition describes,
that will in turn significantly harm the rural regions
in which CountryMark operates.
There are at least two respects in which CountryMark’s
perspective is unique among even small refineries.
To begin with, even without federal requirements,

CountryMark has long supported renewable fuels, and
it has invested in infrastructure that even today could
meet the volume requirements for renewable fuels if
there were sufficient customer demand for those fuels.
That is unsurprising given that the cooperative’s
owners, and many of its customers, are farmers.
Moreover, CountryMark has never had a request for
the small refinery exemption at issue here denied. The
only period in which it did not receive an exemption
was a period where the EPA was applying an incorrect
standard that precluded CountryMark’s eligibility,
which standard was overturned in another Tenth
Circuit case in 2017. However, now that another panel
of the Tenth Circuit has introduced a new requirement
for continuous receipt of exemptions, the Tenth Circuit’s
most recent decision means that CountryMark is no
longer eligible, which threatens its economic viability
even though CountryMark is precisely the sort of
refinery Congress meant to protect with the small
refinery exemptions.
Because CountryMark’s perspective will likely be
helpful to the Court in evaluating the petition for certiorari, the Court should grant this motion for leave.
Respectfully submitted,
JENNY R. BUCHHEIT
Counsel of Record
ICE MILLER LLP
One American Square
Suite 2900
Indianapolis, Indiana 46282
(317) 236-2100
Jenny.Buchheit@
icemiller.com
Counsel for Amicus Curiae
November 12, 2020

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

4

I. COUNTRYMARK, AS A FARMEROWNED COOPERATIVE, HAS LONG
ADVANCED
THE
CAUSE
OF
RENEWABLE FUELS .............................

4

II. BECAUSE IT IS A FARMER-OWNED
SMALL REFINERY IN INDIANA,
COUNTRYMARK FACES UNIQUE
CHALLENGES
TO
INCREASING
RENEWABLE FUELS .............................

6

A. Ethanol ................................................

6

B. Diesel and Biodiesel ............................

9

III. THE TENTH CIRCUIT’S DECISION
THREATENS FINANCIAL RUIN FOR
COUNTRYMARK .....................................

11

CONCLUSION ....................................................

14

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Americans for Clean Energy v. EPA,
864 F.3d 691 (D.C. Cir. 2017) ...................

8

Sinclair Wyoming Ref. Co. v. EPA,
887 F.3d 986 (10th Cir. 2017) ...................

12

STATUTES AND REGULATIONS
42 U.S.C. § 7545(o)(9)(A) ..............................

11

40 C.F.R. § 80.1405 ......................................

6

Ind. Code § 16-44-2-8....................................

7

OTHER AUTHORITIES
CountryMark Co-op moves B5 through
private pipeline, Biodiesel Magazine
(Sept. 1, 2006), available at http://www.
biodieselmagazine.com/articles/1091/coun
trymark-co-op-moves-b5-through-privatepipeline ......................................................

9

Meggie Foster, CountryMark debuts new
brand, re-energized vision, Farm World
(June 21, 2007), available at http://www.
farmworldonline.com/news/ArchiveArtic
le.asp?newsid=4377 ..................................

2, 9

Morning AgClips, CountryMark CEO retires
after oil industry career (Oct. 29, 2019),
available at https://www.morningagclips.
com/countrymark-ceo-retires-after-oil-in
dustry-career/ ............................................

5

iii
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Dep’t of Agriculture, Rural Cooperatives
(Sept./Oct. 2013), available at https://
www.rd.usda.gov/files/rdRuralCoop_Sep
t_Oct13Vr_Web.pdf ...................................

1

U.S. Dep’t of Energy, Addendum to the
Small Refinery Exemption Study: An
Investigation into Disproportionate Economic Hardship (May 2014), available at
https://www.epa.gov/sites/production/files/
2016-12/documents/rfs2-small-refiner-stu
dy-addendum-05-2014.pdf ..........................

12

U.S. Dep’t of Energy, Ethanol, https://www.
fueleconomy.gov/feg/ethanol.shtml (last
visited Nov. 10, 2020) ...............................

7, 8

U.S. Dep’t of Energy, Small Refinery
Exemption Study: An Investigation into
Disproportionate Economic Hardship
(March 2011), available at https://www.
epa.gov/sites/production/files/2016-12/docu
ments/small-refinery-exempt-study.pdf...

10

U.S. Energy Information Admin., FAQs,
How much ethanol is in gasoline, and
how does it affect fuel economy?, https://
www.eia.gov/tools/faqs/faq.php?id=27&t
=10#:~:text=E10%20is%20gasoline%20w
ith%2010,up%20to%2085%25%20fuel%2
0ethanol (last visited Nov. 10, 2020) ........

6

iv
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Energy Information Admin., Frequently Asked Questions, available at
https://www.eia.gov/tools/faqs/faq.php?id
=27&t=10#:~:text=E10%20is%20gasoline
%20with%2010,up%20to%2085%25%20f
uel%20ethanol (last visited Nov. 10,
2020) ..........................................................

6

U.S. EPA Press Office, EPA Delivers on
President Trump’s Promise to Allow
Year-Round Sale of E15 Gasoline and
Improve Transparency in Renewable Fuel
Markets (May 31, 2019), available at
https://www.epa.gov/newsreleases/epa-del
ivers-president-trumps-promise-allow-ye
ar-round-sale-e15-gasoline-and-improve ....

6-7

U.S. EPA, RIN Trades and Price Information, https://www.epa.gov/fuels-regist
ration-reporting-and-compliance-help/rintrades-and-price-information (last visited Nov. 10, 2020) .................................... 9, 11
West Virginia Oil Marketers and Grocers
Association, How much money do businesses make on fuel purchases, available
at https://www.omegawv.com/faq/140-howmuch-money-do-businesses-make-on-fuelpurchases.html (last visited Nov. 10,
2020) ..........................................................

7

v
TABLE OF AUTHORITIES—Continued
Page(s)
Written statement of CountryMark Cooperative Holding Corporation as submitted
to the Subcomm. on Energy and the
Subcomm. on Oversight (July 23, 2015),
available at https://science.house.gov/im
o/media/doc/CountryMark%20Written%
20Testimony%20-%20House%20Science
%20July%202015%20 rev%20final.pdf ...

4

INTEREST OF AMICUS CURIAE
Countrymark Refining and Logistics, LLC
(“CountryMark”)1 is a farmer-owned cooperative that
began in 1919. Its Board of Directors is controlled by
farmers, and each year, its profits are distributed back
to farmers through the cooperative system. In 2012,
CountryMark was recognized as the 12th largest agriculture cooperative in the nation,2 and today it is
owned by over 140,000 farmers in Indiana, Michigan,
Illinois, and Ohio.
CountryMark has a significant interest in this
appeal because the Tenth Circuit’s decision threatens
financial ruin for CountryMark. Much like the small
refineries discussed in the certiorari petition, the demise
of CountryMark would significantly harm the rural
regions in which it operates. In particular, CountryMark
employs nearly 500 workers, mostly in the rural
economy of southwest Indiana and southeast Illinois.
In just Posey County, Indiana, a county with only
26,000 residents, CountryMark provides over $30
million in wages and benefits each year. In 2019, it
purchased over $500 million of crude oil primarily
from the Illinois Basin, and those purchases provided
1

Counsel for all parties received notice of CountryMark’s
intent to file this brief more than 10 days before the deadline to
file the brief. Because some respondents did not consent to
CountryMark filing this brief, CountryMark has moved for leave
to file this brief. Pursuant to Rule 37.6, CountryMark affirms
that no counsel for a party authored this brief in whole or in part;
no such counsel or a party made a monetary contribution to fund
its preparation or submission; and no person other than CountryMark,
its members, or its counsel made such a monetary contribution.
2

See United States Department of Agriculture, Rural Cooperatives, p.3 (September/October 2013), available at https://www.
rd.usda.gov/files/rdRuralCoop_Sept_Oct13Vr_Web.pdf.

2
income to the 40,000 royalty owners in the Illinois
Basin. Its products are also sold and distributed through
its branded dealer network, providing employment
throughout rural communities in Indiana and surrounding states.
CountryMark is the only farmer-owned integrated
oil company in the United States, and it is recognized
in Indiana as a leader in the distribution of biodiesel
and ethanol.3 Its refinery, which uses 100% American
crude oil, processes 30,000 barrels of crude per day. It
supplies over 65% of agricultural market fuels and
50% of school district fuels in the State of Indiana.
CountryMark is subject to the Renewable Fuels
Standard (“RFS”). But even without federal requirements, CountryMark has long been supportive of
renewable fuels. Indeed, the patronage refunds to its
farmer-owners are adjusted based on customer renewable fuels usage to provide incentives for higher blends
of ethanol and biodiesel.
While CountryMark plays a critical role in its
regional market, it is a small refinery on a relative
basis—its capacity is 1/10 the size of the average
refinery in its region. It is therefore the very sort of
small refinery that Congress had in mind when
enacting Small Refinery Exemptions (“SREs”). The
Tenth Circuit’s decision threatens financial ruin for
small refineries like CountryMark because it effectively eliminates those exemptions, and without those
exemptions, CountryMark’s financial viability would
be in significant doubt.

3

Meggie Foster, CountryMark debuts new brand, re-energized
vision, Farm World (June 21, 2007), available at http://www.
farmworldonline.com/news/ArchiveArticle.asp?newsid=4377.

3
SUMMARY OF ARGUMENT
The certiorari petition describes that SREs “are
critical to small refineries within the Tenth Circuit
and across the nation,” that “the decision below poses
an existential threat to these businesses,” and that the
decision “will wreak havoc upon the communities they
serve and the thousands of jobs they support.” Cert.
Pet. p.3. Petitioners are correct. While the certiorari
petition focuses primarily on the impact to small refineries within the Tenth Circuit, CountryMark submits
this brief to illustrate that the decision below is just as
devastating to CountryMark’s farmer-owned cooperative
operating a small refinery serving members and customers in the State of Indiana and the surrounding region.
CountryMark is the quintessential example of a
small refinery Congress sought to protect. It is a
farmer-owned cooperative that was advancing the use
of renewable fuels even before it was subject to a
mandate. However, it faces disproportionate economic
hardship compared to other refiners—even other
small refineries.
CountryMark has invested in blending infrastructure that remains capable of blending enough renewable
fuels to meet its annual obligation. Even though
CountryMark has the infrastructure to blend its obligation, and even with a customer base that embraced
renewable fuels early, the increasingly higher percentages of renewable fuels required for compliance to be
blended in gasoline and diesel now well exceed levels
customers demand. Customers select the percentage
of renewable fuels in their gasoline and diesel when
they choose which fuel mix to purchase. Since these
percentages are below the compliance requirement,
CountryMark must purchase Renewable Identification
Numbers (“RINs”)—compliance credits—to achieve

4
RFS compliance. The combination of increasing volume
obligations and increasing RIN prices makes continued compliance practically impossible, and SREs vital.
So without SREs, CountryMark’s long-term viability
is questionable.
ARGUMENT
I. COUNTRYMARK, AS A FARMER-OWNED
COOPERATIVE, HAS LONG ADVANCED
THE CAUSE OF RENEWABLE FUELS.
For CountryMark, SREs are a vital tool to maintain
its economic vitality while continuing to further the
goal of increasing renewable fuel usage. SREs are not
simply a way of CountryMark avoiding a Congressional
mandate. In fact, as a farmer-owned cooperative,
CountryMark was promoting renewable fuels long
before being mandated to do so.
As a small refinery, CountryMark was not an obligated party subject to the Renewable Volume Obligations
(“RVOs”) until 2011. Nevertheless, CountryMark began
blending biodiesel in 2003 in response to the demands
of its members and their customers. CountryMark
even became a quality expert in biodiesel and a leader
in sales.4 Indeed, at one time, it operated four of the
twelve direct biodiesel rack injection systems in the
nation. CountryMark was even recognized by Senator
Richard Lugar with an Energy Patriot Award for its

4

Written statement of Countrymark Cooperative Holding
Corporation as submitted to the Subcommittee on Energy and the
Subcommittee on Oversight, p.3 (July 23, 2015), available at
https://science.house.gov/imo/media/doc/CountryMark%20Writte
n%20Testimony%20-%20House%20Science%20July%202015%20
rev%20final.pdf.

5
leadership in biodiesel. It has also spent over $3.5
million for its refinery and terminals to allow both
ethanol and biodiesel blending.
5

Because it is a farmer-owned small refinery in
Indiana, CountryMark faces unique challenges to increasing renewable fuels. Even with a customer base
that embraced renewable fuels early, CountryMark’s
customers are unwilling to blend enough renewable
fuels for CountryMark to meet its annual obligation.
At the outset of the Renewable Fuel Standard program, the obligation requirements were at a level
where CountryMark could meet them primarily through
blending renewable fuels. However, even though
CountryMark has invested in and maintains sufficient
blending infrastructure, with the annual obligation
continuing to increase every year, the only way it
can maintain RFS compliance is to purchase RINs
while satisfying its customers’ requirements. But the
combination of increasing obligations beyond levels
that customers demand and increasing RIN prices
makes continued compliance unsustainable.

5

Morning AgClips, CountryMark CEO retires after oil industry
career (October 29, 2019), available at https://www.morningag
clips.com/countrymark-ceo-retires-after-oil-industry-career/.

6
II. BECAUSE IT IS A FARMER-OWNED SMALL
REFINERY IN INDIANA, COUNTRYMARK
FACES UNIQUE CHALLENGES TO
INCREASING RENEWABLE FUELS.
A. Ethanol
The EPA has proposed standards that require more
than 10% ethanol to be blended into gasoline (i.e.,
higher than “E10”6) for compliance since 2016.
40 C.F.R. § 80.1405. Even with this mandated volume,
the marketplace reality is that E10 continues to be the
dominant gasoline blend for at least three reasons.
First, the regulatory framework still favors E10. As
the U.S. Energy Information Administration reports,
while “[a]ll gasoline engine vehicles can use E10,”
“[c]urrently only flex-fuel and light-duty vehicles with
a model year of 2001 or newer are approved by the EPA
to use E15.” U.S. Energy Information Administration,
FAQs, How much ethanol is in gasoline, and how does
it affect fuel economy?7
Also, in June 2019, the EPA extended the 1 pound
per square inch (psi) Reid Vapor Pressure (“RVP”)
waiver for gasoline blends containing 15% ethanol in
an effort to allow E15 blends year-round.8 But the EPA
6

U.S. Energy Information Administration, Frequently Asked
Questions (“E10 is gasoline with 10% ethanol content. E15 is
gasoline with 15% ethanol content, and E85 is a fuel that may
contain up to 85% fuel ethanol.”), https://www.eia.gov/tools/faqs/
faq.php?id=27&t=10#:~:text=E10%20is%20gasoline%20with%2010,
up%20to%2085%25%20fuel%20ethanol (last visited Nov. 10, 2020).
7

https://www.eia.gov/tools/faqs/faq.php?id=27&t=10#:~:text=
E10%20is%20gasoline%20with%2010,up%20to%2085%25%20fu
el%20ethanol (last visited Nov. 10, 2020).
8

U.S. EPA Press Office, EPA Delivers on President Trump’s
Promise to Allow Year-Round Sale of E15 Gasoline and Improve

7
only regulates gasoline RVP from June 1 through
September 15, and the remainder of the year is regulated by the State of Indiana. Ind. Code § 16-44-2-8.
For its part, the State of Indiana has declined to
extend the RVP waiver to E15 gasoline blends. As a
result, E15 cannot be blended year-round unless RVP
levels are reduced, creating a negative economic impact.
Second, the infrastructure required to dispense
higher ethanol blends is cost prohibitive for independent gas station owners. (CountryMark does not own
retail stations; it pays for branding those stations.)
Installation requires multiple blender pumps and a
dedicated underground tank for ethanol or E85. All
combined, in CountryMark’s experience, a new installation to accommodate E15 with ethanol blend pumps
generally costs in excess of $120,000 per station.
Typical retail station net margins are small—less than
a few pennies per gallon9. In addition, most members’
retail facilities are located in rural areas where gasoline sales are less than a half million gallons per year.
Third, demand remains low for higher blends. For
example, E85 is not widely accepted by consumers
regardless of price because it has less energy per
gallon compared to E10. U.S. Dep’t of Energy, Ethanol
(“Due to ethanol’s lower energy content, [flex fuel
vehicles] operating on E85 get roughly 15% to 27%
fewer miles per gallon than when operating on regular
Transparency in Renewable Fuel Markets (May 31, 2019),
available at https://www.epa.gov/newsreleases/epa-delivers-presi
dent-trumps-promise-allow-year-round-sale-e15-gasoline-and-im
prove.
9

West Virginia Oil Marketers and Grocers Association, How
much money do businesses make on fuel purchases, available at
https://www.omegawv.com/faq/140-how-much-money-do-businessesmake-on-fuel-purchases.html (last visited Nov. 10, 2020).

8
gasoline, depending on the ethanol content. Regular
gasoline typically contains about 10% ethanol.”).10 The
retail economics therefore do not support the investment for dedicated infrastructure for higher ethanol
blends like E15 or E85. Due to the high cost and the
apparent lack of consumer acceptance and demand,
retailers do not see the return on this investment.
Nevertheless, to help build out E15 infrastructure,
CountryMark started a program to subsidize its
branded retailers to install tanks and blender pumps.
Regardless of this incentive package, there have only
been a few members that have requested more information on the program. And even then, CountryMark
was only able to start that program because of SREs
it received in 2017 and 2018. The burden of everincreasing RFS obligation requirements coupled with
an apparent end to SREs will of course require
CountryMark to reconsider this program. Instead of
building infrastructure to help its farmer-owners,
CountryMark will need to spend that money on RFS
compliance.
Finally, SREs enable RINs to be unretired and sold
back into the RIN markets, which provides liquidity
and stability, key considerations in regulating the
RFS. See Americans for Clean Energy v. EPA, 864 F.3d
691 (D.C. Cir. 2017) (agreeing with the EPA’s consideration of the need for “flexibility and liquidity”
in the RIN market to avoid “obligated parties facing
the unexpected shortfalls or increased demand for
transportation fuel” with “no way to comply with
the statute”). Without SREs, CountryMark projects a
steady draw on the ethanol-related RIN (referred to as
“D6 RINs”) supply, leading to decreased liquidity and
10

https://www.fueleconomy.gov/feg/ethanol.shtml (last visited
Nov. 10, 2020).

9
instability in that RIN market by 2022. Indeed, the
market is already reflecting this—with fewer D6
RINs, their price has increased by roughly 500% from
their low point over the last 12 months. See U.S. EPA,
RIN Trades and Price Information.11 As a result, the
supply of D6 RINs will be insufficient for the industry
to achieve compliance. Customer demand cannot solve
this problem because the demand for renewable fuel
has nothing to do with, and is completely unaffected
by, RIN prices.
B. Diesel and Biodiesel
CountryMark began blending biodiesel in 2003, and
it is considered a leader of biodiesel blending in the
State of Indiana.12 As would be expected of a farmerowned cooperative, its members and their customers
require more diesel fuel than gasoline. As such,
CountryMark operates its refinery to maximize diesel
fuel production so that it can meet the requirements of
this diesel-centric business. In fact, CountryMark sells
more diesel fuel through its member retail network
than it can produce at its refinery, so it must purchase
diesel from other suppliers to meet customer demand.
Even though biodiesel helps meet this demand,
customers strongly disfavor it, and therefore buy much
less of it. This results in a disproportionate economic
hardship for CountryMark compared to other refiners.
11

https://www.epa.gov/fuels-registration-reporting-and-compl
iance-help/rin-trades-and-price-information (last visited Nov. 10,
2020).
12
Meggie Foster, CountryMark debuts new brand, reenergized vision, Farm World (June 21, 2007), available at http://
www.farmworldonline.com/news/ArchiveArticle.asp?newsid=4377;
CountryMark Co-op moves B5 through private pipeline, Biodiesel
Magazine (September 1, 2006), available at http://www.biodiesel
magazine.com/articles/1091/countrymark-co-op-moves-b5-throughprivate-pipeline.

10
To preclude all doubt, the Department of Energy
has recognized that high diesel production is a
criteria for disproportionate economic harm in its
small refiner exemption survey.13 This is exacerbated
for CountryMark.
Its customers are integrated with the agricultural
community, and they are knowledgeable users of
renewable fuels—both ethanol and biodiesel. Biodiesel
faces significant headwinds in the marketplace, much
like the challenges for ethanol discussed above. Most
significantly, it does not work as well in the winter, so
customers are hesitant to blend biodiesel in the severe
Indiana cold. The market reality is that CountryMark
can only sell approximately 2.5% biodiesel on an
annual average in all diesel fuel.
CountryMark therefore does not have the same
opportunity to blend biodiesel into diesel fuel as there
is for ethanol into gasoline. Even if CountryMark were
to force a 5% biodiesel blend on customers, that would
not be enough to meet CountryMark’s RFS obligations.
Since higher biodiesel blends are not as accepted in the
market, CountryMark does not sell as many biodiesel
blends at 10% or higher, as is possible with ethanol in
gasoline.
Finally, as with ethanol, CountryMark projects a
steady decrease in RINs for biomass-based diesel and
advance biofuels (referred to as “D4” and “D5” RINs),
leading to decreased liquidity and instability in the D4
and D5 RIN prices by 2021. Again, the market has
already begun to react, as D4 and D5 RIN prices have
13

U.S. Department of Energy, Small Refinery Exemption Study:
An Investigation into Disproportionate Economic Hardship, p.33
(March 2011), available at https://www.epa.gov/sites/production/
files/2016-12/documents/small-refinery-exempt-study.pdf.

11
increased by around 85% from their low point over the
last 12 months. See EPA, RIN Trades and Price
Information.14 And as with ethanol-related RINs, the
supply of D4 and D5 RINs will be insufficient for the
industry to achieve compliance.
III. THE TENTH CIRCUIT’S DECISION
THREATENS FINANCIAL RUIN FOR
COUNTRYMARK.
With the annual obligation continuing to increase
without a corresponding increase in customer demand
for renewable fuels, the only way CountryMark
can keep up with the requirements is to purchase
RINs. The combination of increasing obligations and
increasing RIN prices makes continued compliance
unsustainable without SREs. Yet, the Tenth Circuit’s
decision makes those SREs unavailable to refineries
like CountryMark because there were years in which
they did not previously request an SRE.
Beyond the fact that Congress never imposed a
requirement for continuous exemptions, CountryMark’s
own SRE history illustrates why that requirement
would be flawed as a matter of policy. From 2007
through 2010, CountryMark qualified for the original
small refinery exemption and, thus, was exempt
from its RFS obligations for those compliance years
(“the blanket exemption”). 42 U.S.C. § 7545(o)(9)(A).
Then, from 2011 through 2016 CountryMark had no
avenue for relief from its RVO obligations because the
Department of Energy’s revised scoring methodology
under the May 2014 Addendum to the 2011 Department of Energy Study would cause CountryMark to

14

https://www.epa.gov/fuels-registration-reporting-and-compli
ance-help/rin-trades-and-price-information.

12
receive a score below 1.0 for the viability index which,
in turn, would result in the EPA denying the request
for an extension. See U.S. Dep’t of Energy, Addendum
to the Small Refinery Exemption Study: An Investigation
into Disproportionate Economic Hardship (May 2014),
available at https://www.epa.gov/sites/production/files/
2016-12/documents/rfs2-small-refiner-study-addendum05-2014.pdf.
This changed in 2017 when another panel in
the Tenth Circuit invalidated the EPA’s methodology.
Sinclair Wyoming Ref. Co. v. United States Envtl. Prot.
Agency, 887 F.3d 986, 988 (10th Cir. 2017) (“We
conclude the EPA has exceeded its statutory authority
under the CAA in interpreting the hardship exemption
to require a threat to a refinery’s survival as an
ongoing operation.”). Based on that decision, the EPA
granted CountryMark SREs for the 2017 and 2018
compliance years (which were accounted for in 2018
and 2019), recognizing that CountryMark experienced
disproportionate economic impact.
An SRE in one compliance year may make a refinery
ineligible for the hardship exemption in a subsequent
year. Of course, the economic hardship may return
once the refinery is no longer receiving the benefit of
the exemption. It would not make sense for Congress
to impose a requirement of continuous exemptions
when an exemption may preclude eligibility in a
subsequent year and the economic hardship returns
after the exemption expires.
To illustrate further, the following graph provides
CountryMark’s annual RFS compliance costs from
2012 through 2019. While the average compliance cost
for 2012 through 2015 was $14.8 million, without the
benefit of SREs the average compliance costs for 2016
through 2019 would have risen to $17.3 million.

13
However, CountryMark was granted SREs in the 2017
and 2018 compliance years. These were realized in
2018 and 2019 with the value of the SRE being
reflected in the last two bars in the graph below. In
essence, these exemptions reduced CountryMark’s
compliance costs in subsequent years as opposed to
the calendar year for which the exemption was
provided. The SREs shown in 2018 and 2019 reduced
CountryMark’s 2016 through 2019 compliance costs to
$14.3 million.
Historical
RFS Compliance Costs, $ million
$30
$20
$10
$‐
2012 2013 2014 2015 2016 2017 2018 2019
RFS Compliance Costs

Value of Previous Year SRE

Now, as a result of the panel’s decision, CountryMark
is no longer eligible for an SRE. So again, CountryMark
confronts the same reality the certiorari petition
describes—it must rely on RINs, but the price of RINs
have increased because of the Tenth Circuit’s decision,
and demand for transportation fuel has plummeted.
That foretells a return to the economic dynamic in
2016. In that year, RIN prices were high and refining
margins were low. CountryMark’s RFS compliance
cost was $23 million while its Pre-Tax Income was only
$6.5 million. Obviously that is unsustainable. Yet,
with the future uncertainty of RIN pricing and

14
escalating obligations, the Tenth Circuit’s decision
creates the prospect that 2016 becomes the norm for
CountryMark.
Finally, in 2020, the higher RFS costs that have
plagued CountryMark since 2015 have become even
more acute in light of the COVID-19 pandemic and
related economic downturn. The dramatic nationwide
decline in demand for transportation fuel is significantly affecting CountryMark. For a period, the
company reduced the refinery crude rate to its minimum stable operating levels. After averaging a crude
rate of 30,179 barrels per day from January 1 through
March 16, CountryMark reduced refinery crude rate
by an average of 7,800 barrels per day from March 17
through May 31, a nearly 26% reduction. The economic impact of CountryMark has been devastating.
For full year 2020, the company’s pre-tax income is
negative and the estimated 2020 RFS compliance cost
is a whopping $18.3 million. Even if CountryMark
were granted a SRE for 2020, it would not return to
profitability.
CONCLUSION
Before the Tenth Circuit’s decision in this case,
CountryMark has never been denied an SRE. Each
time it applied, the EPA granted the request, just as
Congress intended, because CountryMark demonstrated a disproportionate economic hardship. With no
reason to believe that failing to apply for an SRE
in 2011 through 2016 would foreclose a future request,
CountryMark did not request an exemption in those
years because the volume obligations were low, RIN
prices were low, RFS compliance costs were manageable, and the EPA was applying an incorrect standard
that foreclosed CountryMark’s eligibility.

15
Another Tenth Circuit panel finally corrected the
EPA’s standard in 2017, but now the Tenth Circuit
panel in this case has precluded eligibility for companies like CountryMark for a completely unrelated
reason: because CountryMark does not have a continuous history of requesting an SRE every year.
But CountryMark was entitled to rely on the EPA’s
interpretation of the law between 2011 and 2016, and
it is grossly unfair to impose a new requirement of
continuous exemption requests nine years after the fact.
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JENNY R. BUCHHEIT
Counsel of Record
ICE MILLER LLP
One American Square
Suite 2900
Indianapolis, Indiana 46282
(317) 236-2100
Jenny.Buchheit@
icemiller.com
Counsel for Amicus Curiae
November 12, 2020

